IN THE SUPREME COURT OF THE UNITED STATES

OSBY, ERICK ALLEN
Petitioner
vs.

No:

20-1693

USA
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

ELIZABETH B. PRELOGAR
Acting Solicitor General
Counsel of Record
July 01, 2021
cc:

See Attached List

CAROLINE S. PLATT
ASSISTANT FEDERAL PUBLIC
DEFENDER
ASSISTANT FEDERAL PUBLIC
DEFENDER
OFFICE OF THE PUBLIC DEFENDER
1650 KING STREET, SUITE 500
ALEXANDRIA, VA 22314
CHRISTOPHER D. MAN
WINSTON & STRAWN LLP
1901 L STREET, N.W
WASHINGTON, DC 20036-3506
NATALIE D. CAMASTRA
O'MELVENY & MYERS LLP
400 SOUTH HOPE STREET
18TH FLOOR
LOS ANGELES, CA 90071-2899
EASHA ANAND
RODERICK & SOLANGE
MACARTHUR JUSTICE CENTER
2443 FILLMORE ST.
#380-15875
SAN FRANCISCO, CA 94115
MICHAEL PEPSON
AMERICANS FOR PROSPERITY
1310 N. COURTHOUSE ROAD
SUITE 700
ARLINGTON, VA 22201

